Court of Appe:
Suzanne C. Johnsc
Clerk of Coi
12/21/2020 10:54/

SHENGLIN R. CHEN, et al

*

IN THE

*

COURT OF APPEALS

*

OF MARYLAND

*

Petition Docket No. 325
September Term, 2020

v.
*
*
*

ALVIN TURNER, et al

(No. 1903, Sept. Term, 2019
Court of Special Appeals)
(No. CAE18-22460, Circuit Court
for Prince George’s County)

ORDER

Upon consideration of the petition for a writ of certiorari to the Court of
Special Appeals and the answer filed thereto, in the above-captioned case, it is this 21fl day
of December, 2020

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it
is hereby, DISMISSED on the ground of lateness.

/s/ Mary Ellen Barbera
Chief Judge

SHENGLIN R. CHEN, et al

es at hv n m uoz *
331330 301103 „
,‘S'nisnoa 3W3adns
03Al303y .

c^yRT of appeals

*

OF MARYLAND
Petition Docket No. 325
September Term, 2020

v.
*

(No. 1903, Sept. Term, 2019
Court of Special Appeals)

*
*

(No. CAE18-22460, Circuit Court
for Prince George’s County)

ALVIN TURNER, et al ~
ORDER
‘i

Upon consideration of the “Petitioners' Motion for Remove Roadblocks of the
Fire Exit” filed in the above-captioned case, it is this If day of March, 2021

ORDERED, by the Court of Appeals of Maryland, that the above pleading be,
and it is hereby, DENIED.

""^/sAMary Ellen Barbera
Chief Judge
*

No.

In the Supreme Court of the United States
Shenglin Chen: petitioner
Vs
Alvin Turner respondent
PROOF OF SERVICE
I Shenglin Chen , do swear or declare that on this date Mar 10,2021 as required by
SUPREME Court Rule 29,1 have and Petition for a Writ of Certiorari each party to the above
proceeding an envelope containing the above documents in the United 'Sates mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to third-party
commercial carrier for delivery within 3 calendar days

\

The name and address of those served are a/follow;:
I declare under penalty of peijury that the foregoing : s

and correct Executed on ,2021

Signature
Matthew J Dyer 5303 West Court Drive UppqrMarlboro :MD :20773
cc: Alvin Turner: 6200 HANLON ST. CAPITOL HEIGHTS MD 20743

17

U)

4

E-F

Court of Special Ap
Gregory t
7/10/202010:1
j

*

IN THE

SHENGLIN R. CHEN, ET AL.,
*

COURT OF SPECIAL APPEALS

Appellants,
*

OF MARYLAND

v.
* *

September Term, 2019

ALVIN TURNER, ET AL.,
*

No. 1903

Appellee,

*******

******

ORDER
This appeal was dismissed by Order entered on May 11, 2020 for the appellants’
failure to file the necessary transcript(s) and failure to respond to this Court’s March 17,
2020 Order to Show Cause. On June 12, ,2020, the appellants filed a “Motion to
Reconsider This Dismissed.” The appellants do not identify any reason for their failure
to file the necessary transcript(s), and it appears from a review of the circuit court docket
that the transcripts still have not been filed. The appellees have not filed a response to the
appellants’ motion.
Maryland Rule 8-602(e)(l) requires that a motion for reconsideration of dismissal
be filed no more than ten days following the entry of the order of dismissal. Because the
motion was filed 32 days following the entry of the order of dismissal, the motion is
untimely.

> *

*

t•

\

Accordingly, it is this
Appeals,

day of
*

*

2020, by the Court of Special

Statement t of Jurisdiction
Petitioners' petition for hearing to the Maryland Court of Appeals was denied on
December 21, 2020. Petitioner invokes this Court's jurisdiction under 28 U.S.C.
§1257, having timely filed this petition for a writ of certiorari within ninety days of
the Maryland Court's judgment.
Petitioners are seeking review of a decision of the MD court of special Appeals,
and the Court Of Appeals denying the petition for review (Exhibit appended).
As an INTERLOCUTORY APPEAL case , the lower courts have no rights
dismissing by law.

Beg on bended knee for remove roadblocks on the fire exit or petitioners' can't live

IN THE COURT OF SPECIAL APPEALS OF MARYLAND
Shenglin R. Chen, et ah,
Appellant
v.
Alvin Turner, et al,
Appellee
*

*

*

*

*

No. 1903, September Term 2019

*

CSA-REG-1903-2019

*
*

Circuit Court No. CAE1822460

*
*
* *

*

*

*

«

*

«

ORDER
On March ^7, 2020, this Court entered an order directing the appellant to show
cause in writing why the appeal should not be dismissed pursuant to Maryland Rule 8602(c)(4). This Court did not receive any response to the Order to Show Cause.
Accordingly, it is this

day of —Ma. 2020, by the Court of Special Appeals,

?2

ORDERED that the appeal is dismissed. Pursuant to Rule 8-6o2(e)(i), any

1

motion for reconsideration of this dismissal must be filed within ten (10) days of the

?3

date of this order, as per Rule 8-6o2(e)(i).

Matthew J.

/

Judge

? l-?2 there's no mail really mail out by Mar 17, 2020. (Evidents from mailwoman of post office) i
? frist motion for reconsideration filed on May 15, 2020 with Certified mail and online checked the
delivered information at www.usps.com, the front desk mail proofed that recipted date May 17.2020
? 4 eveiy order mailed out from front desk . why this one from chief Judge himself ?

1

App. 7-12

15

Beg on bended knee for remove roadblocks on the fire exit or petitioners' can't live

*

SHBNGLIN R. CHEN, El* AL..

*

Appellants,

*

v.

* *

ALVIN TURNER, ET AL.,
*

Appellee,
*
*
*

*
*

*
*
ORDER

IN THE
COURT OF SPECIAL APPEALS
OF MARYLAND
September Term, 2019
No. 1903
*
*
*

*

*

This uppeal was dismissed by Order entered on May 11. 2020 for the appellants

,?1

failure to file the necessary transcript(s) and failure to respond to this Court’s March 17,

e?3
u , .2020,

2020 Order to Show Cause. On June

the appellants filed a “Motion to

?2
i

Reconsider This Dismissed.” The appellants do not identify any reason for their failure
ft

to file the necessary transcript(s), and it appears from a review of the circuit court docket
that the transcripts still have not been filed. The appellees have not filed a response to the
appellants’ motion.
Maryland Rule 8-602(eXl) requires that a motion for reconsideration of dismissal
be filed no more than ten days following the entry of the order of dismissal. Because the
motion was filed 32 days following the entry of the order of dismissal, the motion is
untimely.

?5

Accordingly, it is this

>£?*day of

2020, by the Court of Special

Appeals,

1

Distort the facts , Paradox

16

Beg on bended knee for remove roadblocks on the fire exit or petitioners' can’t live

i

it.

t
.1

m THE CIRCUIT COURT FOR PRINCE GEORGE’S COUNTY, MARYLAND
ALVIN TURNER
Plaintiffs%

.

v.

Case No.: CAE18-22460

*

SHENGLIN R. CHEN, et al
Defendants).

OPINION AND ORDER OF COURT

This matter came before the Court for a two day bench trial on Plaintiff’ Complaint
consisting of six counts: 1) Declaratory Judgment, 2) Ejectment, 3) Temporary Restraining
Order, 4) Preliminary' Injunction, 5) Permanent Injunction; and 6) Trespass. Al the trial,
Plaintiffs, Plaintiffs’ Counsel, Defendant ShengiinR. Chen, and Defendants’ Counsel were
present and each called and questioned witnesses.
Annotated Code of Maryland, Courts and Judicial Proceedings § 3-401 et. seq.
states the rules for a Declaratory Judgment. Section 3-409(a)(l) permits a declaratory
judgment if an actual controversy exists between contending parties. The Plaintiffs in this
case are Alvin and Jeannette Turner and the Defendants are Shenglin Chen and Chaohua
Chen. The Plaintiffs filed this action on July 3, 2018. During Mrs. Tuner’s direct
testimony, she testified that the Plaintiffs created 401 Yolanda Avenue LLC on January 29,
2018 (Plaintiffs’ Exhibit #3) and on June 11, 2018 transferred her husband's and her
ownership interest in the parcel of land with the street address of 401 Yolanda Avenue,

*

Capital Heights to 40! Yolanda Avenue LLC (Plaintiffs’ Exhibit #4). At the time Plaintiffs
filed this request for a Declaratory' Judgment, the Plaintiffs no longer owned the land where
the disputed ingress/egress gravel road is located and therefore, the Plaintiffs and
Defendants did not have “an actual controversy existing between the contending parties.”
Since 401 Yolanda Avenue, LLC-is a necessary and proper party, the Court will not issue
a declaratory judgment and will dismiss the case without prejudice. Likewise, the Plaintiff
are not entitled to a claim of ejectment or to any injunctive relief because the Plaintiffs can
not demonstrate immediate and irreparable harm. Finally, as to the trespass count, the

ikiksaa

i

b
6

t

f

Beg on bended knee for remove roadblocks on the fire exit or petitioners' can't live

4
I;

r

r*

Plaintiffs must establish 1) an interference with a possessory interest in their property, 2)
through the Defendants’ physical act or force against the property, and 3) which was
executed without consent.
Here, the Plaintiffs have established that they acquired the property on August 2,
2017 (Plaintiffs’ Exhibit #1) and transferred the property on June 11, 2018 (Plaintiffs
Exhibit #4). During their ownership, Plaintiffs’ testified that they had a fence erected
around the property in January 2018. Both Plaintiffs and their son testified they observed
Defendant Ms. Chen cut down portions of the new fence on January 23, 2018. When the
Plaintiffs confronted Defendant Ms. Chen and instructed her to stop, Defendant Ms, Chen
refused. Plaintiffs called County Police to stop further destruction. Plaintiff Mr. Turner
testified that he observed Ms. Chen and/or her renters trespass on the parcel at least six (6)
times prior to erecting the fence. Based on Plaintiffs’ testimony, this Court will find that
Ms. Chen and/or her renters have crossed over the gravel road without the Plaintiffs’
consent and they continue to use the 10-foot grave! road. Die Court finds the Defendants
do not have a legal right to use the 10-foot gravel road and each time they utilize it for
ingress and egress, they are trespassing and are subject to legal action. Plaintiff Mr. Turner

1

further testified that he has not repaired the fence because he feared Defendants would cut
it down again and continue to use the gravel road across 401 Yolanda Avenue LLC’s
parcel. Since Plaintiffs are no longer the owners of the parcel, they have no right or
responsibility to recover costs to repair the fence.
•H,

It is, therefore, this _i®

day of January, 2020, in the Circuit Court for Prince

George’s County, Maryland, hereby,
ORDERED, that the Plaintiffs’ Counts 1 - 5 are DISMISSED without prejudice
because 401 Yolanda Avenue LLC is the title owner of the disputed gravel road; and it is
further,
ORDERED, that Defendants have trespassed on 401 Yolanda Avenue p.trcel1
during Plaintiffs’ ownership of the parcel; however, Plaintiffs have not suffered any

1 During opening and closing arguments. Defendants argued they had the right to use the gravel road
from the Chens' property across the 401 Yolanda Avenue LLCs parcel (see Boundary Survey, Plaintiffs'
Exhibit #2) under a legal theory "easement by necessity." One of the prerequisites for an easement by
necessity is the easement must be necessary in order for the grantor or grantee of the property In
question to be able to access his -or her land, with the necessity existing both at the time of the severance
and at the time of the exercise of the easement. Defendants’ argument fails for two reasons: 1}

2

1

bl
7

Beg on bended knee for remove roadblocks on the fire exit or petitioners' can't live

'■-y-

monetary damages as to repairing the fence or as to lost rent for the period of February 9,
2018 (date of the rental permit. Plaintiffs’ Exhibit #16) through June 11, 2018 (date of
transfer). The fence has not been repaired and Plaintiffs have not proven that Defendants’
actions actually interfered with their ability to rent the property; and it is further,
ORDERED, that this case is closed statistically.

|bhnP>t>avey, Judge
Copies to:

i

■

>/

I

Matthew J. Dyer, Esq..
Krystal R_ Wilson.

;on

*

;
Defendants' Deed (Plaintiffs' Exhibit S14) provides them "with a 15-Foot easement adjacent with,
continuous, and parallel to the east side of the described property for the purposes of ingress and egress"
to Old Central Avenue, and 2) from the time the Defendants purchased their property in 2013 to 2016,
the Defendants used the recorded easement to access their property. This Court finds that Defendants
do not have any legal right to use the 10 foot gravel road because they have alternative access that
existed when they chose to create and use the disputed gravel road access.
3

■Si

n

b2
Because the judge barred petitioners from entry any evidence or testimony in defense this complaint, there’s no
argument of petitioners' side , the judge co-work with plaintiff fraud #14 without site review, there's a 1.5ft by .3 mile's
forest -dirt road to old central Ave, not a 15 ft wide ingress/egress ., the fire fact on April 10.2019 and burnt out property ,
there's 100 firemen can only via the fire exit as ingress/ egress attached evidence from fire department, with the site survey .

8

Beg on bended knee for remove roadblocks on the fire exit or petitioners’ can't live

BOOK: 39981 PACK: 190

i
CO

EXHIBIT “A"
LEGAL DESCRIPTION

/ %
?3

s
ALL THAT PROPERTY SITUATE IN PRINCE GEORGE'S COUNTY. STATE OF MARYLAND.
DESCRIBED AS FOLLOWS:

.£

£

BEGINNING AT AN IRON PIPE FOUND ON THE NORTHWEST CORNER OF WILLIAM A. AND
ANNA E. KEYSER, UBER 227, FOLIO 475 AND RUNNING ON A DIVISION LINE BETWEEN
LOT 10 AND LOT 13 OF 'MURDAUGH AND WHITING’S SUBDIVISION OF LOTS 1, 2, AND 4
OF JOHNSON'S SUBDIVISION OF PART OF A TRACT CALLED SEAT PLEASANT. S. 77 DEG 33
MIN. 50 SEC. W. 174.50 FEET TO AN IRON PIPE. THENCE THROUGH LOT 9. N. 12 DEG. 26
MIN 10 SEC. W. 503.03 FEET TO AN IRON PIPE, THENCE WITH THE SOUTH SIDE OF
YOLANDA AVENUE AND BELHAVEN SUBDIVISION (B.D.S. 1*36) N. 77 DEG. 33 MIN 50 SEC.
E. 174.50 FEET TO AN IRON PIPE FOUND, THENCE WITH THE LINE OF RAYMOND A.
GIRARD LIBER 2345. FOLIO 297, AND CHARLES G. PENKERT, LIBER 889. FOLIO 465 S 12
DEG 26 MIN 10 SEC E S03.03 FEET TO THE POINT OF BEGINNING.

©
^5

i
2
I
5cc

S

8Ol

CONTAINING 87,778.7 SQUARE FEET OR 2.0151 ACRES. AS PER DEED DESCRIPTION
PREPARED BY W. L. MEEKINS, INC. DATED NOVEMBER 16TH, 1977.

3.

u
O

<
2

t

©

cr>

o

i

d
C0

cn

£f>

X
,i

<

5
4? '
o'
o
a
•o

a
"D
o

O

D
O

S
o

>

h3
3

O

o
cr,
UJ

O
d

o
UJ
<3

UJ

o
S
a

•

1

a.

32

Additional material
from this filing is
available in the
Clerk's Office.

